TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Modernized e-File Release 6.2 Included
                   Enhancements, but Improvements Are
                Needed for Tracking Performance Issues and
                           Security Weaknesses



                                       September 8, 2011

                              Reference Number: 2011-20-088




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


THE MODERNIZED E-FILE RELEASE 6.2                     not established for using the matrices.
INCLUDED ENHANCEMENTS, BUT                            Therefore, TIGTA was unable to validate
IMPROVEMENTS ARE NEEDED FOR                           whether issues during the 2010 Filing Season
TRACKING PERFORMANCE ISSUES                           were resolved. Additionally, seven of
                                                      24 General Support System security
AND SECURITY WEAKNESSES
                                                      weaknesses affecting the MeF System were
                                                      unresolved and not being tracked. Further,
Highlights                                            although issues were identified, they were not
                                                      tracked as required by the MeF Risk
                                                      Management Plan.
Final Report issued on September 8,
2011                                                  WHAT TIGTA RECOMMENDED
                                                      TIGTA recommended that the Chief Technology
Highlights of Reference Number: 2011-20-088
                                                      Officer ensure: 1) all identified performance
to the Internal Revenue Service Chief
                                                      issues are effectively mapped through to their
Technology Officer.
                                                      resolution for all future filing seasons;
IMPACT ON TAXPAYERS                                   2) guidance is established for consistent use of
                                                      the internal matrix to accurately depict the status
The Modernized e-File (MeF) Project goal is to        of performance enhancements and solutions;
replace the Internal Revenue Service’s (IRS)          3) all confirmed MeF security weaknesses not
current tax return filing technology with a           immediately mitigated are included in the Plan of
modernized, Internet-based electronic filing          Action and Milestones to ensure adequate
platform. The IRS’s processes for enhancing           documentation, reporting, and resolution
the MeF System can be improved to better              tracking; and 4) all issues and risks are included
validate correction of prior release performance      in the Item Tracking Reporting and Control
and stability issues. This will allow more            System or that procedures outside the scope of
individual taxpayers to take advantage of the         the MeF Risk Management Plan are properly
benefits of electronic filing.                        documented and approved.
WHY TIGTA DID THE AUDIT                               The IRS agreed with three of TIGTA’s
                                                      recommendations and stated corrective actions
This review is part of our Fiscal Year 2011
                                                      have been taken or started. However, the IRS
Annual Audit Plan and addresses the major
                                                      disagreed with TIGTA’s recommendation that all
management challenge of Modernization of the
                                                      confirmed MeF security weaknesses were not
IRS. The overall objective of this review was to
                                                      immediately mitigated and included in the Plan
determine whether the IRS properly identified
                                                      of Action and Milestones. The IRS stated it has
and corrected MeF performance and stability
                                                      currently accounted for all security controls
problems identified during the 2010 Filing
                                                      confirmed as not in place within the Plan of
Season.
                                                      Action and Milestones by confirming these
WHAT TIGTA FOUND                                      through a Security Assessment and
                                                      Authorization currently in progress. However,
The MeF Project Office followed Change                TIGTA maintains that the Plan of Action and
Management processes, included key                    Milestones should be continuously monitored
performance enhancements in Release 6.2, and          and updated as weaknesses are identified or
effectively accomplished testing prior to             changes occur and milestones are achieved.
implementation. However, improvements are             This will ensure the accuracy of the information
needed for tracking performance issues and            that is reported quarterly to the Department of
security weaknesses. Specifically, internal           the Treasury.
matrices captured performance enhancements;
however, documentation did not support that
enhancements were tracked to recommended
solutions, and internal controls or guidance were
                                                 DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 8, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Modernized e-File Release 6.2 Included
                                 Enhancements, but Improvements Are Needed for Tracking
                                 Performance Issues and Security Weaknesses (Audit # 201020028)

 This report presents the results of our review of the Modernized e-File Release 6.2. The overall
 objective of this review was to determine whether the Internal Revenue Service (IRS) properly
 identified and corrected Modernized e-File performance and stability problems identified during
 the 2010 Filing Season.1 This audit is included in the Treasury Inspector General for Tax
 Administration Fiscal Year 2011 Annual Audit Plan and addresses the major management
 challenge of Modernization.
 Management’s complete response to the draft report is included in Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit, Security and Information Technology
 Services, at (202) 622-5894.




 1
     See Appendix VI for a glossary of terms.
                      The Modernized e-File Release 6.2 Included Enhancements, but
                                Improvements Are Needed for Tracking
                             Performance Issues and Security Weaknesses




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Modernized e-File Planning Included Key Performance Enhancements
          and Followed Prescribed Change Management Processes ........................... Page 3
          Improvements Are Needed to Ensure Performance
          Enhancements Resolve Filing Season Problems .......................................... Page 5
                    Recommendation 1:........................................................ Page 6

                    Recommendation 2:........................................................ Page 7

          Modernized e-File Security Weaknesses Are Still Not
          Adequately Controlled .................................................................................. Page 7
                    Recommendation 3:........................................................ Page 9

          Issue Management Processes Need Improvement ........................................ Page 10
                    Recommendation 4:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Enterprise Life Cycle Overview .......................................... Page 17
          Appendix V – Modernized e-File System Unresolved Security
          Weaknesses Not Being Tracked in the Plan of Action and Milestones ........ Page 19
          Appendix VI – Glossary of Terms ................................................................ Page 21
          Appendix VII – Management’s Response to the Draft Report ..................... Page 24
         The Modernized e-File Release 6.2 Included Enhancements, but
                   Improvements Are Needed for Tracking
                Performance Issues and Security Weaknesses




                         Abbreviations

e-file            Electronic Filing
IRS               Internal Revenue Service
ITRAC             Item Tracking Reporting and Control
MeF               Modernized e-File
MITS              Modernization and Information Technology Services
PET               Performance Enhancement Team
POA&M             Plan of Action and Milestones
TIGTA             Treasury Inspector General for Tax Administration
                     The Modernized e-File Release 6.2 Included Enhancements, but
                               Improvements Are Needed for Tracking
                            Performance Issues and Security Weaknesses




                                               Background

In December 1998, the Internal Revenue Service (IRS)
announced its mission to revolutionize the way                The MeF Release 6.2 will provide
                                                              code optimization to support the
taxpayers transact and communicate with the IRS. In         anticipated volume of returns in the
order to achieve this goal, the plan was to replace the      2010 through 2012 Filing Seasons.
current outdated technology with a modernized,               The MeF System must be capable
Internet-based electronic filing (e-file) platform. The     of processing more than 100 million
system’s purpose was to streamline the tax return              electronically filed tax returns.
filing process and reduce costs associated with paper
tax returns. In February 2004, the IRS deployed the
initial release of the Modernized e-File (MeF) System, which provided electronic filing of the
U.S. Corporation Income Tax Return (Form 1120) and other associated corporate forms. The
overall scope of the MeF System includes filing of electronic tax returns for corporations,
partnerships, nonprofit/tax exempt businesses, and individuals. According to the MeF
Information Technology Dashboard, dated March 31, 2011, the MeF Program’s overall budgeted
amount until Fiscal Year 2020 is $575.8 million.
The IRS deployed MeF Release1 6.1 on February 17, 2010, to begin electronically processing the
U.S. Individual Income Tax Return (Form 1040), along with 22 other forms and schedules.
Subsequently, MeF Release 6.2 went live on January 8, 2011, and focused on performance and
ensuring all capabilities within the MeF System could process the anticipated volume of tax
returns during the upcoming 2010 through 2012 Filing Seasons. MeF Release 6.2 enhancements
were developed to allow an increase in the number of users needing system access, enlarge the
volume and types of forms being processed, continue operation and maintenance, and launch
logical design activities for the disaster recovery solution.
The MeF System is expected to replace the IRS’s current tax return filing technology by the
2013 Filing Season. To reach this goal, the MeF System must be capable of processing more
than 100 million electronically filed individual income tax returns, allowing more individual
taxpayers to use electronic filing. Performance and stability will be paramount to successful
implementation as the IRS moves forward. Specific challenges faced by the MeF System
include:
      •    Improving service to taxpayers and practitioners.
      •    Reducing processing congestion and errors.



1
    See Appendix VI for a glossary of terms.
                                                                                          Page 1
               The Modernized e-File Release 6.2 Included Enhancements, but
                         Improvements Are Needed for Tracking
                      Performance Issues and Security Weaknesses



   •   Managing and processing a high volume of returns.
   •   Improving processing-related issue management.
In February 2010, the MeF Project Office began work to address performance and stability
requirements for Release 6.2. As a result, the MeF Project Office established a
MeF Performance Enhancement Team (PET) and held a kickoff meeting for the team on
April 20, 2010.
This review was performed at the Modernization and Information Technology Services (MITS)
organization facilities in New Carrollton, Maryland, during the period August 2010 through
March 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 2
                  The Modernized e-File Release 6.2 Included Enhancements, but
                            Improvements Are Needed for Tracking
                         Performance Issues and Security Weaknesses




                                     Results of Review

The MeF Project Office used Change Management processes and ensured key performance
enhancements were included in MeF Release 6.2, thus meeting its established performance
goals. However, improvements are needed to strengthen management controls over resolving
prior 2010 Filing Season performance issues. Additionally, controls over the MITS organization
General Support System’s2 security weaknesses and issue management tracking need
improvement.

Modernized e-File Planning Included Key Performance Enhancements
and Followed Prescribed Change Management Processes
The MeF Project Office successfully projected and planned for system performance
enhancements and Change Management processes.

MEF System performance enhancements included key activities
The MeF Project Office established a MeF PET that consisted of three independent subteams—
Portals, Frontend, and Backend—to ensure the MeF System adequately processed and managed
the high volume of tax returns for the 2010 through 2012 Filing Seasons. The main objectives
were to reduce return processing congestion and errors, manage a high volume of returns, and
identify cost-efficient changes for service delivery. Overall, the MeF PET incorporated key
planning activities; for example, according to the Project Management Plan, the PET identified
Enterprise Key Performance Indicators, established baselines and targets, and planned for
resources, roles, and responsibilities. The three independent subteams established a repository as
a tool for managing and sharing information and developed a matrix used for guiding
performance changes.
The IRS Quick Alerts online service provides tax professionals with up-to-date tax information.
It was enhanced to quickly disseminate real-time tax information during and after the filing
season by sending e-file messages to its subscribers (e-file Transmitters, Authorized Providers,
and Software Developers). Our review of IRS Quick Alerts sent to e-file Providers during the
time period May through July 2010 disclosed that the Alerts system worked as intended.
Specifically, during this time period, there were four Alerts citing portal login and



2
  OMB Circular A-130 defines general support systems as an “interconnected set of information resources under the
same direct management control that shares common functionality. It normally includes hardware, software,
information, data, applications, communications, and people.”
                                                                                                         Page 3
                The Modernized e-File Release 6.2 Included Enhancements, but
                          Improvements Are Needed for Tracking
                       Performance Issues and Security Weaknesses



acknowledgement issues, along with documented scheduled downtime for MeF System
maintenance.

Change Management processes were adequate
Change Management processes used by MeF Project Office management to document and
release updates to production were adequate and process improvement activities are ongoing.
Enterprise-wide Change Management processes are being designed for consistent use
MITS-wide.
Effective Change Management is the transition of a changed or new product from development
into production, with minimum disruption to users. It is initiated when a change to the current
production environment is approved. A Change Management Board (for the MeF Program, this
is the Submission Processing Executive Steering Committee) should authorize the installation of
new or modified products into the current production environment. For each proposed change,
the chairpersons of the Change Management Board formally assign a disposition (i.e., approve or
defer), and the impacted business owners formally respond.
Our review of MeF Release 6.2 Change Management activities and processes supported that the
MITS organization was proactive in improving or institutionalizing its processes. For instance,
the MeF Configuration Management Plan was timely and adequately updated by MITS
Configuration Management. Additionally, project documents revealed MeF Release 6.2 was
properly authorized to update and change the MeF System production environment. The
MeF Release 6.2 exit from development, with transition to the production environment, was
properly approved by the Chairperson, Submission Processing Executive Steering Committee,
with concurrence by impacted business units and stakeholders.
Industry best practices (such as the Capability Maturity Model Integration®) describe an
evolutionary process improvement path leading from ad hoc or immature to more disciplined or
mature processes with improved quality and effectiveness. For any given process area, such as
Change Management, a critical distinction between attaining capability level 2 and a more
mature capability level 3 is found in process descriptions, procedures, and scope of standards.
Specifically, at capability level 2, these areas can be diverse for each particular project; however,
at a more mature level 3, the areas are tailored from the organization’s own set of standard
processes and become more institutionalized. Therefore, it is commendable that the
MITS organization, currently with Change Management processes for each domain (or set of
projects), is designing enterprise-wide Change Management processes to improve consistency
and to further institutionalize guidance for use MITS-wide. As such, the effort can lead to a
more disciplined organization with improved quality and effectiveness.

Testing was effectively accomplished prior to implementation
In our prior Treasury Inspector General for Tax Administration (TIGTA) audit report,
Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax Returns, but
                                                                                              Page 4
                    The Modernized e-File Release 6.2 Included Enhancements, but
                              Improvements Are Needed for Tracking
                           Performance Issues and Security Weaknesses



System Development and Security Need Improvement,3 we reported that test results were not
always being traced to requirements and not all unexpected results were thoroughly resolved.
However, the current audit disclosed that all system requirements were tested or conditional
approval was granted. Also, as required by the Enterprise Life Cycle, our review of test plans,
execution schedules, and report and defect logs determined that they were adequately supported
and maintained. Additionally, the MeF Project Office appropriately documented and presented
test results to the Submission Processing Executive Steering Committee, and meeting minutes
provided evidence that testing reports were appropriately discussed prior to deployment.

Improvements Are Needed to Ensure Performance Enhancements
Resolve Filing Season Problems
According to the Capability Maturity Model Integration, there are five common features that
indicate whether the implementation and institutionalization of a key process area is effective,
repeatable, and lasting. One of those features states that activities should typically involve
establishing plans and procedures, performing and tracking work, and taking necessary
corrective actions. The MeF Project Office developed PET Matrices to capture performance
enhancements for MeF Release 6.2; however, there was either inadequate or no support
documentation for performing and tracking work or for showing that necessary corrective action
was taken. As a result, the TIGTA was unable to validate whether captured performance
elements identified during the 2010 Filing Season were ever resolved. Specifically:
      •   During the 2010 Filing Season, MeF Project Office personnel did not initially map
          potential performance enhancements to performance and stability issues encountered by
          tax practitioners. The PET indicated that performance issues were identified by
          reviewing resolved/closed Information Technology Asset Management System tickets
          and by polling customers during the filing season, and that performance enhancements
          were developed based on these issues. However, MeF Project Office personnel were
          unable to provide any documentation to support that potential performance enhancements
          were implemented based on issues developed from the review of resolved tickets;
          therefore, the TIGTA was unable to validate that this had occurred.
      •   During the 2010 Filing Season, the PET identified 47 potential performance
          enhancements. Although they subsequently developed 56 recommended solutions for the
          performance enhancements, the PET Matrix Summary disclosed that the majority were
          not appropriately achieved. Specifically, of the 56 recommended solutions, only
          15 (27 percent) indicated they were being actively worked (approved, implemented, or in
          progress); 32 (57 percent) were still listed as being under evaluation; and 9 (16 percent)
          did not stipulate a status at all (see Figure 1). Further, of the 47 identified potential


3
    Reference Number 2010-20-041, dated May 26, 2010.
                                                                                             Page 5
                The Modernized e-File Release 6.2 Included Enhancements, but
                          Improvements Are Needed for Tracking
                       Performance Issues and Security Weaknesses



       performance elements, there were 11 (23 percent) for which recommended solutions were
       never developed.
                 Figure 1: Performance Enhancement Team Matrix Summary

                                       Number of
                                     Recommended
                                     Solutions With          Number of               Number of
                                       a Status of          Recommended            Recommended
                Number of              Approved,              Solutions               Solutions
               Recommended           Implemented,            Still Under               With No
    Teams        Solutions           or in Progress          Evaluation            Status Provided
   Frontend           14                     0                      14                      0
   Portal              9                     1                       0                      8
   Backend            33                    14                      18                      1
   Totals             56                    15                      32                      9
  Source: Frontend/Portal Matrix dated January 11, 2011, and Backend Matrix dated November 29, 2010.

   •   Internal controls or guidance were not established for using the matrices. For example,
       MeF Project Office personnel stated that due to the Oracle 11g upgrade, many of the
       47 performance enhancements were no longer necessary; however, the matrices were
       never updated to reflect that current information. Also, personnel did not always use the
       matrices consistently. Specifically, of the Number of Recommended Solutions for the
       Portal, 8 (89 percent) of 9 did not have status provided, and none of them provided a
       target release date (not shown in Figure 1). Furthermore, the PET Matrices included a
       column titled “Status” for recording details/status on recommended solutions; however,
       the answers lacked consistent terminology. For example, rows within this column used
       terms, such as Under Evaluation, Under Analysis, Needs Evaluation, and Evaluating,
       which were sometimes used interchangeably.
Mapping performance enhancements to performance and stability issues identified in the
2010 Filing Season will help ensure performance issues are actively resolved for future filing
seasons, duplication of effort is not occurring, and the entire resolution process is being
accomplished. Further, guidance is necessary for establishing internal controls to ensure the PET
Matrices are complete, accurate, updated in a timely manner, and use consistent terminology.

Recommendations
Recommendation 1: The Chief Technology Officer should direct the PET to effectively map
all identified performance issues through to their resolution for all future filing seasons.


                                                                                                   Page 6
                    The Modernized e-File Release 6.2 Included Enhancements, but
                              Improvements Are Needed for Tracking
                           Performance Issues and Security Weaknesses



           Management’s Response: The IRS agreed with the recommendation. The MeF
           Project Office has developed a PET Matrix which documents all MeF
           performance-related issues. The matrix will be used by the PET to identify possible
           resolutions and to track the work associated with each of the resolutions.
           Performance-related activities that were deferred from MeF Release 6.2 will be included
           in this matrix. As part of the regularly scheduled PET status meetings, the matrix will be
           updated and reviewed.
Recommendation 2: The Chief Technology Officer should direct the PET to establish
guidance requiring, at a minimum, timely updates and consistent terminology be used in the PET
Matrices to accurately depict the status of performance enhancements and solutions.
           Management’s Response: The IRS agreed with the recommendation. The PET
           Matrix will be put under tight configuration control. A single point of contact will be
           identified to update the matrix. Status updates from the members of the PET will be
           provided to the point of contact during the regularly scheduled PET meetings. Once the
           updates are made by the point of contact, the matrix will be posted (in a read only mode)
           for all PET members to access. Consistent terminology will be used to the extent
           possible and where relevant.

Modernized e-File Security Weaknesses Are Still Not Adequately
Controlled
In our prior TIGTA audit report, we recommended that the IRS Cybersecurity organization
complete process implementation to ensure that system owners comply with IRS policy to enter
and track all system security weaknesses in IRS control systems. The MITS Cybersecurity
organization responded it made continuous improvements to the Plan of Action and Milestones
(POA&M) process in recent years, and it now considers the process complete and implemented
as of March 25, 2010.

The MITS Cybersecurity organization is still not tracking all system security
weaknesses
The MITS Cybersecurity organization reported 24 unresolved security weaknesses during
MeF Releases 6.1 and 6.2 security assessments. We reviewed the Fiscal Year 2011 MeF System
and some MITS General Support System POA&Ms4 to identify the tracking of these security
weaknesses and to determine if the corrective action taken by the IRS to improve the POA&Ms
was adequately implemented.
Based on our review of the 24 security weaknesses, we identified 7 MITS General Support
System security weaknesses affecting the MeF Program that were unresolved and not being

4
    We reviewed the General Support System POA&Ms that included issues relating to the MeF System.
                                                                                                     Page 7
                    The Modernized e-File Release 6.2 Included Enhancements, but
                              Improvements Are Needed for Tracking
                           Performance Issues and Security Weaknesses



tracked in the POA&M as required.5 Three of the seven security weaknesses have been reported
multiple times by the Cybersecurity organization and still have not been included in the
POA&M. The MeF Project Office staff stated they are not responsible for the General Support
System security weaknesses, and if security weaknesses have not been validated by security
testing, they are not documented in the POA&M.
However, the IRS MITS Plan of Action and Milestones (POA&Ms) Standard Operating
Procedure specifies that the POA&M must be prepared for all system- and program-level
security weaknesses. The POA&M must include complete, comprehensive descriptions of the
security weaknesses and detailed explanations of the steps and dates when the mitigations or
remedies will be applied. The IRS is required to report on a quarterly basis to the Department of
the Treasury the status of its POA&M items. The Department of the Treasury annually submits
a consolidated agency report to the Office of Management and Budget and Congress. The
Trusted Agent Federal Information Security Management System is the application that the
Department of the Treasury and the IRS use to track and monitor POA&M weaknesses. All
POA&M weaknesses must be entered into the Trusted Agent Federal Information Security
Management System to satisfy the reporting requirements.
Additionally, three of the seven security weaknesses identified in the security assessments
included risk-based decisions for the MeF System to proceed without the required security
controls in place. The Cybersecurity organization should have included these security
weaknesses in the General Support System POA&M to document and track them to resolution so
the required security controls will eventually be in place for the MeF System.
According to the IRS’s Request for Risk Acceptance and Risk Based Decision (RBD) Standard
Operating Procedure (SOP), security weaknesses can be discovered at any point in a system’s
lifecycle and by many different means. It is also possible that some security weaknesses will be
uncovered during development activities. Additionally, the procedure states that regardless of
the source, when a security weakness is discovered, the first steps are to thoroughly analyze the
weakness, determine a plan to remediate or mitigate the weakness, and lay out a workable
schedule for implementation of the corrective activities. The procedure includes that for
production systems, all of this is captured in a POA&M and entered into the Trusted Agent
Federal Information Security Management System.

Inadequate reporting of National Institute of Standards and Technology
outstanding security controls
The IRS should protect the MeF System by implementing appropriate security controls to ensure
the confidentiality, integrity, and availability of sensitive data, as recommended in the National
Institute of Standards and Technology Special Publication 800-53.6 These security controls

5
    See Appendix V for the seven unresolved security weaknesses not being tracked in the POA&M.
6
    Recommended Security Controls for Federal Information Systems, Revision 2, dated December 2007.
                                                                                                      Page 8
                  The Modernized e-File Release 6.2 Included Enhancements, but
                            Improvements Are Needed for Tracking
                         Performance Issues and Security Weaknesses



include system access, audit logging, and contingency planning. In addition, the IRS is
specifically required by Federal law7 to keep taxpayer data confidential and prevent unauthorized
disclosure or browsing of taxpayer records. These requirements apply to all IRS computer
systems that maintain sensitive data.
Because all of the security weaknesses related to the MeF System are not being tracked in the
POA&M, it is difficult to determine which National Institute of Standards and Technology
security controls are missing. For example, the Submission Processing Executive Steering
Committee presentation from December 29, 2010, requesting MeF Release 6.2, Milestone 4b
exit,8 showed that there were two remaining POA&M items relating to two security
controls. However, based on our review of the Fiscal Year 2011 MeF System POA&M items,
there were actually three remaining POA&M items that addressed five security controls.
Additionally, based on our analysis of the ongoing General Support System security weaknesses
affecting the MeF System, there were 12 additional security controls that were not in place.
Without properly reporting all MeF System ongoing security weaknesses in the POA&M, the
IRS cannot ensure that the security weaknesses are being properly reported and tracked to
resolution. If the security weaknesses are not resolved, the MeF System does not include all of
the National Institute of Standards and Technology required security controls and remains
vulnerable. Additionally, the Office of Management and Budget uses the information in the
POA&M to assess the IRS’s progress in alleviating system weaknesses, monitor the Federal
Government’s ability to implement the Federal Information Security Management Act of 2002,9
and make budgetary decisions. Inaccurate or incomplete POA&M information affects the Office
of Management and Budget’s ability to obtain an accurate status of IRS security weakness
remediation.

Recommendation
Recommendation 3: The Chief Technology Officer should ensure that all confirmed MeF
security weaknesses from all sources, that are not mitigated immediately, are included in the
POA&Ms to ensure adequate documentation, reporting, and tracking to resolution.
        Management’s Response: The IRS disagreed with the recommendation and stated
        the Chief Technology Officer ensures all confirmed security weaknesses from all sources
        that are not mitigated immediately are included in the POA&Ms to ensure adequate
        documentation, reporting, and tracking to resolution. Further, the IRS stated that all
        confirmed weaknesses for the MeF System have been reported in the system POA&Ms
        or in the appropriate General Support System POA&M.

7
  Internal Revenue Code Section (§) 6103 (26 U.S.C. § 6103) and the Taxpayer Browsing Protection Act of 1997
(26 U.S.C.A. §§ 7213, 7213A, and 7431 (West 2006).
8
  See Appendix IV.
9
  44 U.S.C. §§ 3541 – 3549.
                                                                                                       Page 9
                The Modernized e-File Release 6.2 Included Enhancements, but
                          Improvements Are Needed for Tracking
                       Performance Issues and Security Weaknesses



       Office of Audit Comment: In its management comments, the IRS noted disagreement
       with the statement, “there were 12 additional security controls that were not in place.”
       Specifically, the IRS disagreed with our assessment that all confirmed security
       weaknesses were not immediately mitigated and included in the POA&Ms and were not
       adequately documented, reported, and tracked to resolution. The IRS stated it has
       currently accounted for all security controls confirmed as not in place within the
       POA&Ms by confirming these through a Security Assessment and Authorization
       currently in progress. However, the TIGTA maintains that the POA&Ms should be
       continuously monitored and updated as weaknesses are identified or changes occur and
       milestones are achieved. This will ensure the accuracy of the information that is reported
       quarterly to the Department of the Treasury.

Issue Management Processes Need Improvement
The MeF Project Office did not follow the MeF Risk Management Plan, which requires all issues
and candidate risks to be entered into the Item Tracking Reporting and Control (ITRAC) System
to ensure monitoring and control by external stakeholders. During our review of the
administration and oversight of the MeF Program, we identified several issues and risks that the
IRS did not properly track. Specifically:
   •   Even though issues were identified in the Information Technology Project Control
       Review, they were not tracked using the issue management tool.
   •   Even though MeF Project Office personnel tracked candidate risks using an external
       watch list, they did not enter those candidate risks into the ITRAC System as required by
       the MeF Risk Management Plan.
The MeF Risk Management Plan requires that all information technology major and nonmajor
projects maintain risk, issue, and action item data in a central, common repository. Specifically,
personnel will periodically review, monitor, and update risks and issues in the ITRAC System.
MeF Project Office management stated that it was not realistic to track all possible risks in the
ITRAC System. Therefore, they developed an external watch list used for evaluating candidate
risks and elevating them to active risks prior to entering them into the ITRAC System. However,
MeF Project Office personnel did not develop guidelines or procedures for using the watch list,
which was used to supplement the requirements outlined in the MeF Risk Management Plan.
The lack of adherence to guidance negatively affects the IRS’s ability to efficiently monitor and
track issues that are critical for external stakeholder awareness.




                                                                                          Page 10
               The Modernized e-File Release 6.2 Included Enhancements, but
                         Improvements Are Needed for Tracking
                      Performance Issues and Security Weaknesses



Recommendation
Recommendation 4: The Chief Technology Officer should ensure that all issues and
candidate risks are included in the ITRAC System or those procedures outside the scope of the
MeF Risk Management Plan are properly documented and approved.
       Management’s Response: The IRS agreed with the recommendation. The MeF
       Project Office will document candidate risks and issues in the ITRAC System. The
       candidate risks and issues will be worked through the standard risk and issue process, and
       the ITRAC System will be updated accordingly.




                                                                                         Page 11
                  The Modernized e-File Release 6.2 Included Enhancements, but
                            Improvements Are Needed for Tracking
                         Performance Issues and Security Weaknesses



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS properly identified and corrected
MeF System performance and stability problems identified during the 2010 Filing Season.1 To
accomplish this objective, we:
I.      Determined whether the 2010 Filing Season MeF System performance and stability
        problems have been identified, evaluated, and included as an action item for
        improvement for the 2011 Filing Season.
        A. Reviewed how MeF System performance and stability problems were identified,
           tracked, and evaluated to determine whether a corrective action is necessary for the
           upcoming 2011 Filing Season.
        B. Reviewed the applicable problem reporting tracking documentation developed by the
           MeF Program Office for performance and stability problems and determined whether
           all 2010 Filing Season performance and stability problems identified were
           documented to show how the item would be resolved for the upcoming 2011 Filing
           Season.
        C. Reviewed all identified 2010 Filing Season potential performance and stability
           enhancements and determined if they were evaluated and included as a corrective
           action for improvement for the upcoming 2011 Filing Season.
II.     Determined whether the MeF Release 6.2 was adequately tested prior to implementation,
        the test plan includes all aspects of the updated system, and all unexpected results are
        thoroughly resolved. As determined in our prior MeF System audit,2 although the PET
        traced requirements between the Business System Requirements Report Final and the
        System Integration and Test Plan, the System Integration and End of Test Completion
        Report showed the test results were not traced to the requirements and the application did
        not execute all of the requirements as expected. Additionally, we determined if project
        releases are deployed only after all system requirements were tested and met, and that test
        results were verified to ensure their completeness and accuracy. If requirements were not
        met, defect reports should be prepared to allow for appropriate resolution by retesting or
        waiving the requirement prior to deployment.


1
 See Appendix VI for a glossary of terms.
2
 Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax Returns, but System
Development and Security Need Improvement (Reference Number 2010-20-041, dated May 26, 2010).
                                                                                                        Page 12
               The Modernized e-File Release 6.2 Included Enhancements, but
                         Improvements Are Needed for Tracking
                      Performance Issues and Security Weaknesses



       A. Determined if all aspects of the MeF System were tested, as outlined in the detailed
          requirements (whether all requirements listed in the Requirements Traceability
          Matrix and Business Systems Requirements Report are tested).
       B. Determined if all performance and stability problems identified during the
          2010 Filing Season were tested as outlined in the performance evaluation
          documentation. According to the prior TIGTA audit report, the IRS cited its
          milestone readiness review as a process for monitoring a project’s progress toward
          satisfying exit conditions and for making formal go/no-go recommendations to the
          Executive Steering Committee. However, the TIGTA determined that with the
          significant number of failed tests reported and the subsequent problems with rejected
          individual income tax returns filed, the Executive Steering Committee did not have
          sufficient and timely information to make an informed risk-based decision for
          deploying MeF Release 6.1. Therefore, we specifically determined whether all
          system requirements were tested and results were verified prior to deployment. We
          reviewed Executive Steering Committee meeting minutes to determine if testing
          reports were discussed prior to deployment.
       C. Determined if all testing process documentation exists as required by the Enterprise
          Life Cycle. We obtained and reviewed testing-related documentation (e.g., test plans,
          test cases, test execution schedules, and end-of-test report and defects logs).
III.   Determined whether Change Management activities that will result in changes to the
       production environment are effective. Activities include change initiation and approval,
       modification, development, and testing and acceptance.
       A. Determined if all changes to the MeF System are properly initiated and approved in
          accordance with the Enterprise Life Cycle.
       B. Verified code changes are modified/developed in an area separate from the
          testing/quality assurance and production environments.
       C. Verified code is tested in a segregated/controlled environment (testing/quality
          assurance, which is separate from development and production).
       D. Determined if all the test results are reviewed and approved by the end users. We
          verified the method of user acceptance (e.g., verbal or written).
IV.    Determined whether corrective actions were implemented or modified since the last audit
       by discussing procedures with appropriate IRS personnel in the Cybersecurity
       organization. Specifically, based on the due dates of the security material weakness
       discovered in the prior audit report, the security vulnerabilities discovered were not
       scheduled for completion until June 2010 and April 2011. Two security vulnerabilities
       for audit trails were not adequately controlled to reach resolution as part of the
       MeF Release 6.1 deployment.

                                                                                            Page 13
                The Modernized e-File Release 6.2 Included Enhancements, but
                          Improvements Are Needed for Tracking
                       Performance Issues and Security Weaknesses



       A. Determined whether the MeF System and database still have audit log weaknesses,
          including whether:
           1. All required auditable events are captured.
           2. An official is assigned to monitor and maintain system audit mechanisms.
           3. Database audit reduction tools are used.
           4. Users who only require limited access do not have full capabilities to access
              database records, including taxpayer information.
           5. An audit log review process is in place, and logs are being reviewed by
              MeF System officials.
       B. Determined what specific process improvements occurred to ensure all system
          owners follow IRS policy designed to ensure all system security weaknesses are
          entered and tracked to resolution.
       C. Determined if MeF System security issues are being tracked in the POA&M.
       D. Contacted the Security and Information Technology Services Security group to
          determine if security issues have been identified in the MeF Program.
       E. Reviewed the Joint Audit Management Enterprise System report associated with prior
          corrective actions from prior TIGTA audits to determine the current status of those
          actions and how the corrective actions are being documented.
Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Enterprise Life Cycle and related IRS
guidelines and the processes followed in the development of information technology projects.
We evaluated these controls by reviewing the guidelines, conducting interviews and meetings
with management and staff, and reviewing project documents.




                                                                                          Page 14
               The Modernized e-File Release 6.2 Included Enhancements, but
                         Improvements Are Needed for Tracking
                      Performance Issues and Security Weaknesses



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kimberly R. Parmley, Acting Director
Ryan R. Perry, Lead Auditor
Charlene L. Elliston, Senior Auditor
Beverly K. Tamanaha, Senior Auditor
Suzanne M. Westcott, Senior Auditor
Louis V. Zullo, Senior Auditor
Monique S. Queen, Information Technology Specialist




                                                                                     Page 15
              The Modernized e-File Release 6.2 Included Enhancements, but
                        Improvements Are Needed for Tracking
                     Performance Issues and Security Weaknesses



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner - Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Director, Privacy, Information Protection and Data Security OS:P
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Program Management OS:CTO:AD:PM
Director, Submission Processing OS:CTO:AD:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Director, Risk Management Division OS:CTO:SP:RM




                                                                               Page 16
                The Modernized e-File Release 6.2 Included Enhancements, but
                          Improvements Are Needed for Tracking
                       Performance Issues and Security Weaknesses



                                                                                 Appendix IV

                    Enterprise Life Cycle Overview

The Enterprise Life Cycle is the IRS’s standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’s ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the phases and milestones within the Enterprise Life Cycle. A
phase is a broad segment of work encompassing activities of similar scope, nature, and detail and
providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting and
ends with an executive management decision point (milestone), at which IRS executives make
“go/no-go” decisions for continuation of a project. Project funding decisions are often associated
with milestones.




                                                                                          Page 17
                   The Modernized e-File Release 6.2 Included Enhancements, but
                             Improvements Are Needed for Tracking
                          Performance Issues and Security Weaknesses



                   Figure 1: Enterprise Life Cycle Phases and Milestones

              Phase                             General Nature of Work                     Milestone
 Vision and Strategy/               High-level direction setting. This is the only
 Enterprise Architecture            phase for enterprise planning projects.                    0
 Phase
 Project Initiation Phase           Startup of development projects.                           1
 Domain Architecture Phase          Specification of the operating concept,
                                                                                               2
                                    requirements, and structure of the solution.
 Preliminary Design Phase           Preliminary design of all solution components.             3
 Detailed Design Phase              Detailed design of solution components.                   4A
 System Development Phase           Coding, integration, testing, and certification of
                                                                                              4B
                                    solutions.
 System Deployment Phase            Expanding availability of the solution to all target
                                    users. This is usually the last phase for                  5
                                    development projects.
 Operations and                     Ongoing management of operational systems.              System
 Maintenance Phase                                                                         Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                               Page 18
                     The Modernized e-File Release 6.2 Included Enhancements, but
                               Improvements Are Needed for Tracking
                            Performance Issues and Security Weaknesses



                                                                                                   Appendix V

                 Modernized e-File System
    Unresolved Security Weaknesses Not Being Tracked
           in the Plan of Action and Milestones

The following table presents unresolved security weaknesses identified by the IRS Cybersecurity
organization affecting the MeF System. Based on our review of these security weaknesses and
information provided by the IRS, the weaknesses remain unresolved and are not being tracked in
the POA&Ms as required. The table includes the security weaknesses and when they were
identified.

                                                                  MeF Release
                                               MeF Release 6.1,   6.1, Security                    MeF Release 6.2,
                                                Security Risk          Risk        TIGTA Report     Security Risk
                                                 Assessment        Assessment       2010-20-041,     Assessment
                                                Report, dated     Report, dated        dated        Report, dated
              Security Weakness                October 16, 2009   April 15, 2010    May 26, 2010   November 1, 2010

    1    After three unsuccessful                    X                 X                X                 X
         attempts, the MeF System                                                                   Risk-Based
         automatically locks out the                                                                 Decision
         offending user accounts for
         only 15 minutes. Therefore,
         it did not enforce automatic
         account locks on user
         accounts for a minimum of
         24 hours in accordance with
         IRS policies.
    2    MeF Release 6.1 will utilize                X                 X                X
         Business Objects1 for
         statistical reporting. Ad hoc
         reports generated are not
         marked “Sensitive But
         Unclassified” and are not
         adequately protected.


1
    See Appendix VI for a glossary of terms.
                                                                                                          Page 19
                   The Modernized e-File Release 6.2 Included Enhancements, but
                             Improvements Are Needed for Tracking
                          Performance Issues and Security Weaknesses



                                                             MeF Release
                                          MeF Release 6.1,   6.1, Security                     MeF Release 6.2,
                                           Security Risk          Risk        TIGTA Report      Security Risk
                                            Assessment        Assessment       2010-20-041,      Assessment
                                           Report, dated     Report, dated        dated         Report, dated
            Security Weakness             October 16, 2009   April 15, 2010    May 26, 2010    November 1, 2010

  3    MeF Security Audit and                    X                 X                X
       Analysis System logs are
       not populated with two
       required fields. The two
       fields that were missing
       were the Error Code and
       Return Message.
  4    The system is not                                           X
       configured to automatically
       alert personnel in the event
       of audit log failure.
  5    The processes for                                                            X                 X
       establishing and confirming                                                               Risk-Based
       user identification on the                                                                 Decision
       MeF System did not meet
       Federal Government
       standards for accrediting
       cryptographic modules.
  6    Virus checking is disabled                                                                     X
       on state-specific responses                                                               Risk-Based
       in the Extensible Markup                                                                   Decision
       Language Gateways for the
       MeF System.
  7    Application-to-application                                                                     X
       sessions are not terminated
       after 15 minutes of
       inactivity.
Source: MeF Release 6.1, Security Risk Assessment Report, dated October 16, 2009; MeF Release 6.1, Security
Assessment Report, dated April 15, 2010; prior TIGTA report, Modernized e-File Will Enhance Processing of
Electronically Filed Individual Tax Returns, but System Development and Security Need Improvement (Reference
Number 2010-20-041, dated May 26, 2010); and MeF Release 6.2, Security Risk Assessment Report, dated
November 1, 2010.



                                                                                                       Page 20
                The Modernized e-File Release 6.2 Included Enhancements, but
                          Improvements Are Needed for Tracking
                       Performance Issues and Security Weaknesses



                                                                              Appendix VI

                               Glossary of Terms

            Term                                         Definition
Business Objects               Objects in an object-oriented computer program that represent
                               the entities in the business domain that the program is
                               designed to support. For example, an order entry program
                               might have business objects to represent each order, line
                               items, and invoices.
Capability Maturity Model      A model or collection of “best practices” that organizations
Integration®                   follow to dramatically improve the effectiveness, efficiency,
                               and quality of their product and service development work.
Code Optimization              The process of modifying a software system to make some
                               aspect of it work more efficiently or use fewer resources.
Configuration Management       A practice to establish proper control over approved project
                               documentation, hardware, and software and assuring changes
                               are authorized, controlled, and tracked.
Enterprise Life Cycle          A structured business systems development method that
                               requires the preparation of specific work products during
                               different phases of the development process.
Executive Steering Committee   A committee that oversees investments, including validating
                               major investment business requirements and ensuring that
                               enabling technologies are defined, developed, and
                               implemented.
Extensible Markup Language     The universal format for structured documents and data on the
                               Web.
Filing Season                  The period from January through mid-April when most
                               individual income tax returns are filed.




                                                                                       Page 21
                The Modernized e-File Release 6.2 Included Enhancements, but
                          Improvements Are Needed for Tracking
                       Performance Issues and Security Weaknesses



             Term                                           Definition
General Support System            OMB Circular A-130 defines a general support system as an
                                  “interconnected set of information resources under the same
                                  direct management control that shares common functionality.
                                  It normally includes hardware, software, information, data,
                                  applications, communications, and people.”
Governance                        An IRS-designed enterprise governance model that assigns all
                                  information technology projects to an appropriate executive
                                  oversight body.
Information Technology Asset      This system delivers an inventory system that enables
Management System                 tracking, reporting, and management of information
                                  technology assets.
Issue                             A situation or condition that either 1) currently has negative
                                  consequences for an information technology program/project
                                  or organization or 2) has 100 percent probability of having
                                  negative consequences for the program/project or
                                  organization.
Item Tracking Reporting and       An information system used to track and report on issues,
Control System                    risks, and action items in the modernization effort.
MeF Backend                       Represents the MeF System application servers and the
                                  application software hosted on the application servers that
                                  perform submission validation and processing.
MeF Frontend                      Represents the Extensible Markup Language gateways and
                                  Simple Object Access Protocol Web Application Server
                                  architecture that performs entry and authentication services in
                                  order to get to the MeF Backend.
Milestone                         Milestones provide for “go/no-go” decision points in a project
                                  and are sometimes associated with funding approval to
                                  proceed.
National Institute of Standards   An agency under the Department of Commerce responsible
and Technology                    for developing standards and guidelines, including minimum
                                  requirements, for providing adequate information security for
                                  all Federal Government agency operations and assets.




                                                                                          Page 22
                The Modernized e-File Release 6.2 Included Enhancements, but
                          Improvements Are Needed for Tracking
                       Performance Issues and Security Weaknesses



              Term                                         Definition
Oracle 11g                      A relational database management system, with version 11g
                                being first introduced in Calendar Year 2007. Oracle 11g
                                enables clusters of low-cost, industry standard servers to be
                                treated as a single unit and features built-in testing for
                                changes, the capability of viewing tables back in time,
                                compression capability for all types of data, and enhanced
                                disaster recovery functions.
Plan of Action and Milestones   A tool that Federal agencies must use to assist in identifying,
                                assessing, prioritizing, and monitoring the progress of
                                corrective efforts for security weaknesses found in programs
                                and systems. A POA&M identifies tasks to correct
                                weaknesses, resources required, and scheduled completion
                                dates.
Portal                          A point of entry to a network system that includes a search
                                engine or a collection of links to other sites usually arranged
                                by topic. It provides the infrastructure that allows users
                                (including IRS employees and taxpayers) to have web-based
                                access to IRS information.
Release                         A specific edition of software.
Requirement                     A formalization of a need and the statement of a capability or
                                condition that a system, subsystem, or system component must
                                have or meet to satisfy a contract, standard, or specification.
Risk                            A potential event that could have an unwanted impact on the
                                cost, schedule, business, or technical performance of an
                                information technology program/project or organization.
Risk-Based Decision             A risk-based decision is considered when meeting the
                                requirement is technically or operationally not possible or is
                                not cost-effective. It is required for any situation in which the
                                system will be operating outside of IRS information
                                technology security policy or National Institute of Standards
                                and Technology guidelines, whether related to a technical,
                                operational, or management control.
Security Audit and Analysis     This system implements a data warehousing solution to
System                          provide online analytical processing of audit trail data.


                                                                                            Page 23
    The Modernized e-File Release 6.2 Included Enhancements, but
              Improvements Are Needed for Tracking
           Performance Issues and Security Weaknesses



                                                    Appendix VII

Management’s Response to the Draft Report




                                                           Page 24
The Modernized e-File Release 6.2 Included Enhancements, but
          Improvements Are Needed for Tracking
       Performance Issues and Security Weaknesses




                                                       Page 25
The Modernized e-File Release 6.2 Included Enhancements, but
          Improvements Are Needed for Tracking
       Performance Issues and Security Weaknesses




                                                       Page 26
